           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




ECONOMIC RECOVERY PAYMENTS FOR
SOCIAL SECURITY AND SUPPLEMENTAL
  SECURITY INCOME BENEFICIARIES

    September 2010   A-09-10-11017




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      September 24, 2010                                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Economic Recovery Payments for Social Security and Supplemental Security Income
           Beneficiaries (A-09-10-11017)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA)
           properly issued economic recovery payments 1 (ERP) to eligible beneficiaries, as
           authorized under the American Recovery and Reinvestment Act of 2009 (ARRA). 2

           BACKGROUND
           ARRA provided for a one-time ERP of $250 to certain adult Social Security and
           Supplemental Security Income (SSI) beneficiaries. 3 Individuals eligible for benefits
           for any of the 3 months before the month of enactment (that is, November 2008,
           December 2008, and January 2009) could receive the one-time payment. To receive
           the payment, beneficiaries had to reside in 1 of the 50 States, the District of Columbia,
           Puerto Rico, Guam, the U.S. Virgin Islands, American Samoa, or the Northern Mariana
           Islands. If individuals received both Social Security and SSI, they were eligible for only
           one $250 payment. 4

           In addition, ARRA provided for a one-time payment to Department of Veterans
           Affairs (VA) and Railroad Retirement Board (RRB) beneficiaries. VA and RRB were
           responsible for certifying and paying individuals under their respective programs. 5 If


           1
               Also referred to as stimulus payments or one-time payments.
           2
               Pub. L. No. 111-5, Division B, Title II § 2201, H.R. 1-336 to 1-340.
           3
            We use the term “beneficiary” generically in this report to refer to both Social Security beneficiaries and
           SSI recipients.
           4
               Pub. L. No. 111-5, Division B, Title II § 2201(a), H.R. 1-337.
           5
               Pub. L. No. 111-5 Division B, Title II § 2201, H.R .1-336 to 1-340.
Page 2 - The Commissioner

individuals received both Social Security or SSI payments and VA or RRB benefits,
they were eligible for only one $250 payment. 6

SSA was required to identify and certify the Social Security and SSI beneficiaries
eligible for an ERP and provide the Department of the Treasury (Treasury) with the
information to disburse the payments.7 In April 2009, SSA identified all beneficiaries
who met the eligibility criteria from its payment records. In May 2009, about 52 million
beneficiaries received their $250 payments, totaling about $13 billion. Through
December 2010, SSA will perform periodic catch-up runs to identify and certify newly
eligible and payable individuals.

RESULTS OF REVIEW
The vast majority of ERPs SSA certified in May 2009 was properly issued to eligible
beneficiaries under ARRA. However, SSA could have prevented the issuance of ERPs
to some ineligible beneficiaries. In addition, SSA did not always recover erroneous
ERPs from deceased beneficiaries and issued ERPs to beneficiaries who were
incarcerated at the time of payment. We estimate about:

•     71,688 beneficiaries were deceased before the payment certification date and
      received $18 million in ERPs. This included 8,207 “Prouty” beneficiaries 8 who
      received $2.1 million in ERPs.

•     17,348 beneficiaries 9 were incarcerated and received $4.3 million in ERPs (see
      Appendix C). Under ARRA, most of these beneficiaries were eligible for an ERP.
      ARRA did not prohibit ERPs for incarcerated beneficiaries who were otherwise
      eligible to receive them.

These conditions occurred because SSA (1) was unaware of beneficiary deaths
and incarcerations that were reported after it had certified the ERPs, (2) relied on
questionable data in its payment records, and (3) did not review all available records,
such as the Numident for death information and Prisoner Update Processing System
(PUPS) for beneficiary incarcerations. Finally, ARRA did not provide the authority for
SSA or Treasury to reclaim erroneous ERPs issued to deceased beneficiaries.


6
    Pub. L. No. 111-5, Division B, Title II § 2201(a)(3), H.R. 1-337.
7
    Pub. L. No. 111-5, Division B, Title II § 2201(b), H.R. 1-338.
8
  Pub. L. No. 89-368 § 302 added Section 228 to the Social Security Act (Act), which provided benefits
for men who were age 72 before 1968 with little or no opportunity to obtain Social Security coverage
during their working years. Widows who were age 72 before 1970 whose husbands died without Social
Security coverage also qualified for these benefits. These monthly payments are referred to as “Special
Age 72” or “Prouty” benefits after Senator Winston Prouty, who sponsored the bill. 42 U.S.C. § 428.
9
  Includes beneficiaries whose benefits were suspended because they were in prison, in a mental
institution, a predator, or had an “unknown” status.
Page 3 - The Commissioner

DECEASED BENEFICIARIES

Our review disclosed that 71,688 beneficiaries who were deceased before the payment
certification date received an ERP. This included 63,481 beneficiaries whose deaths
had been reported to SSA and 8,207 Prouty beneficiaries whose deaths were generally
not reported to SSA. As a result, we estimate SSA issued about $18 million in ERPs to
deceased beneficiaries, including about $2.1 million to Prouty beneficiaries.

ARRA states that an ERP shall not be issued to any individual whose date of death
occurs before the date on which the individual is certified to receive a payment. 10 SSA
policy states that if a beneficiary is eligible to receive an ERP, but dies before payment,
no ERP will be issued. 11

    Beneficiary-Reported Deaths – Of the 71,688 deceased beneficiaries who received
an ERP, SSA received death information for 63,481 individuals. In some instances,
SSA was unaware the beneficiaries had died when it certified their eligibility to receive
an ERP. In other instances, SSA was aware but did not review its Numident 12 record
for death information before certifying the ERP. As a result, we estimate these
beneficiaries received about $15.9 million in ERPs.

Based on a random sample of 50 deceased beneficiaries, we found 43 (86 percent)
were deceased before the payment certification date, but the death had not been
reported to SSA. However, for the remaining seven (14 percent) beneficiaries,
SSA was aware the beneficiary had died but did not review its Numident for death
information before it certified the ERP. Instead, SSA relied only on its payment
records—which did not contain any death information. Had SSA reviewed the death
information on the Numident before certifying payments, about 14 percent of the ERPs
to deceased beneficiaries could have been avoided. If SSA subsequently determined
the Numident death information was erroneous and the beneficiary was alive, it could
have certified the ERP in a catch-up run.

For example, one beneficiary died on June 21, 2005. SSA received a death report
and posted the information on its Numident on June 25, 2005. However, SSA did
not review its Numident before certifying the ERP. Therefore, SSA certified the
beneficiary was eligible for an ERP on April 27, 2009. The ERP was issued on
May 7, 2009 via direct deposit to a joint bank account and has not been returned
to SSA.

10
     Pub. L. No. 111-5, Division B, Title II § 2201(a)(4)(D), H.R. 1-338.
11
   SSA, Program Operations Manual System (POMS), GN 02820.010.B and GN 02820.020.B. On
August 13, 2010, SSA revised its policy to state that if a beneficiary dies after certification but before
receiving the payment, an ERP will be issued to an authorized representative of the deceased’s estate
upon return of the original payment.
12
  The Numident is a master file that contains personal identifying information for each individual who has
been issued a Social Security number.
Page 4 - The Commissioner

    Reclamation of Payments Issued to Deceased Beneficiaries – Generally, SSA
processes a stop payment to request that Treasury reclaim payments not due,
including any checks or electronic fund transfers (EFT) issued after a beneficiary’s
death. 13 For the ERPs, checks issued to deceased beneficiaries that are subsequently
negotiated are subject to Treasury reclamation. However, EFTs issued to deceased
beneficiaries are not subject to reclamation 14 because ARRA did not provide SSA or
Treasury the authority to reclaim erroneous ERPs issued to deceased beneficiaries.

Of the 50 beneficiaries in our sample, 47 had at least 1 Social Security benefit that
was issued after the beneficiaries’ deaths. Because SSA had the authority to initiate
reclamation of benefit payments after death, they were all returned. However,
since SSA could not initiate reclamation for the ERPs, it only received returned
checks or credits for 26 (52 percent) of the 50 beneficiaries in our sample. For
the 26 payments that were returned, 17 were EFTs and 9 were checks. For the
remaining 24 outstanding payments, 22 were EFTs while 2 were checks.

    Prouty Beneficiaries – The 1966 amendments to the Act included a provision,
referred to as the Prouty amendment, that provides for special payments to individuals
aged 72 and older who were too old to have worked long enough after passage of the
Act to be insured for Social Security benefits.15

Of the 71,688 deceased beneficiaries who received an ERP, 8,207 were Prouty
beneficiaries whose deaths were generally not reported to SSA. Based on a random
sample of 50 beneficiaries, we found these individuals were, according to SSA’s
records, between the ages of 112 and 136 and had not received a Social Security
benefit for at least 30 years. According to the Gerontology Research Group,
there were 22 individuals who were 110 years or older in the United States as of
November 2009. The oldest validated living centenarian in the United States was
age 114 as of November 2009. 16

As a result, we concluded it was unlikely that any Prouty beneficiaries were entitled to
an ERP. SSA subsequently informed us there was one Prouty beneficiary who was
still alive and eligible for an ERP. We estimate these beneficiaries received about
$2.1 million in erroneous ERPs. When SSA determined these beneficiaries were
eligible for an ERP, it considered neither the age of the beneficiaries nor the lack of
contact with these individuals in over 30 years.




13
     SSA, POMS GN 02408.001.
14
     SSA, POMS GN 02820.053.C.2.
15
     See Footnote 8 and SSA, POMS, RS 00211.001.
16
     Gerontology Research Group, Validated Living Supercentenarians, November 2009.
Page 5 - The Commissioner

We reviewed a sample of 50 Prouty beneficiaries who received an ERP. For the
50 beneficiaries in our sample, 48 payments totaling $12,000 had been returned, and
2 payments totaling $500 were still outstanding as of December 2009. For example,
SSA suspended benefits to a Prouty beneficiary in June 1969. The beneficiary was
born on December 12, 1890 and, according to SSA’s records, was 118 years old when
the ERP was issued on May 7, 2009. The beneficiary’s age exceeded that of the oldest
living person in the United States. As of December 2009, the ERP had been neither
negotiated nor returned to SSA.

We believe SSA should take actions to terminate the records for Prouty beneficiaries,
since they should be presumed to be deceased. Such action should prevent any
additional payments (for example, ERP and Social Security benefits) from being issued
to these individuals. According to SSA staff, the Agency has decided to terminate some
of the beneficiary records using a presumed date of death of March 15, 2009. As
of December 2009, only 5 of the 50 beneficiaries’ records in our sample had been
terminated for death. Finally, SSA also informed us that of the 8,207 ERPs paid to
Prouty beneficiaries, 8,163 have been returned, repaid by personal check, or are no
longer negotiable.

INCARCERATED BENEFICIARIES

Our review disclosed that 17,348 incarcerated beneficiaries17 received an ERP. This
included beneficiaries who were ineligible for an ERP under ARRA and beneficiaries
who were eligible for the ERP but were incarcerated at the time of payment. Based
on a random sample of 50 beneficiaries, we estimate SSA issued about $4.3 million in
ERPs to incarcerated beneficiaries.

Under ARRA, beneficiaries who were incarcerated in their most recent month of
entitlement during the 3-month period (that is, November 2008, December 2008, and
January 2009) were not eligible for an ERP. 18 However, ARRA did not contain any
provision to preclude the payment of an ERP to beneficiaries who were eligible for an
ERP but incarcerated at the time of certification or payment.

SSA receives inmate reports, which include dates of conviction and incarceration, from
Federal, State, and local correctional and mental health facilities. SSA maintains this
information in PUPS to control, monitor, and suspend benefits to individuals who should
not be receiving them. 19




17
     See Footnote 9.
18
     Pub. L. No. 111-5, Division B, Title II § 2201(a)(4), H.R. 1-337 to 1-338.
19
     SSA, POMS SI 02310.073.
Page 6 - The Commissioner

    Ineligible Beneficiaries – Of the 50 beneficiaries in our sample, 5 (10 percent) were
ineligible for an ERP. We found SSA had previously suspended benefits for the five
beneficiaries and noted on their payment records the reason for suspension was
“unknown.” However, SSA had not taken appropriate follow-up action to determine the
actual reason for suspension. In addition, we found three of these beneficiaries had
PUPS records that showed they were incarcerated. Consequently, these beneficiaries
received ERPs even though they were ineligible during the 3-month period defined in
ARRA. SSA has received returned checks for all five beneficiaries.

For example, SSA suspended benefits to a beneficiary in June 1988. SSA noted
the reason for suspension was “unknown” and, according to PUPS, the beneficiary
had been incarcerated since June 1988. As a result, SSA improperly certified the
beneficiary as eligible to receive an ERP, which was issued on May 7, 2009. Had SSA
resolved the “unknown” suspension or reviewed PUPS before certifying the ERP, it
could have prevented the issuance of the ERP to the incarcerated beneficiary. On
May 29, 2009, this ERP was returned to SSA.

    Eligible Beneficiaries – Of the 50 beneficiaries in our sample, 45 (90 percent) were
eligible for an ERP but incarcerated at the time of payment. When the ERPs were
issued, according to SSA policy, the Agency generally did not send underpayments to
incarcerated beneficiaries while they were physically residing in a correctional or mental
institution. 20 In December 2009, the Act was amended to prohibit the payment of any
retroactive Social Security or SSI benefits to individuals while they are in prison, in
violation of conditions of their parole or probation, or fleeing to avoid prosecution for a
felony or crime punishable by sentence of more than 1 year. 21 SSA is prohibited from
paying any retroactive benefits until the beneficiary is no longer a prisoner, probation or
parole violator, or fugitive felon.

However, neither the December 2009 amendment to the Act nor ARRA included any
prohibition of the payment of an ERP to beneficiaries who were incarcerated at the time
of payment. Beginning in September 2009, SSA withheld ERPs to beneficiaries who
were incarcerated at the time of payment.




20
     SSA, POMS, GN 02607.550.A.2 and SI 02310.070.
21
     No Social Security Benefits for Prisoners Act of 2009, Pub. L. No. 111-115, December 15, 2009.
Page 7 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
The vast majority of ERPs SSA certified in May 2009 was properly issued to eligible
beneficiaries under ARRA. However, SSA could have prevented the issuance of ERPs
to some ineligible beneficiaries. In addition, SSA did not always recover erroneous
ERPs from deceased beneficiaries and issued ERPs to beneficiaries who were
incarcerated at the time of payment. We estimate about (1) 71,688 beneficiaries were
deceased before the payment certification date and received $18 million in ERPs, and
(2) 17,348 beneficiaries were incarcerated and received $4.3 million in ERPs (see
Appendix C). Under ARRA, most of these incarcerated beneficiaries were eligible for
their payments.

Under ARRA, SSA is performing periodic catch-up runs to identify and certify newly
eligible and payable individuals through December 2010. We have initiated an audit of
these payments to determine whether SSA accurately disbursed the catch-up ERPs to
eligible beneficiaries. 22

Should another ERP be enacted into law, we recommend SSA:

1. Review the Numident and PUPS to identify deceased and incarcerated beneficiaries
   before certifying their eligibility to receive an ERP.

2. Work with Treasury to obtain the authority to reclaim ERPs issued to deceased
   beneficiaries.

3. Ensure ERPs are not issued to beneficiaries who are incarcerated at the time of
   payment.

In addition, we recommend SSA:

4. Take appropriate action to terminate the records for Prouty beneficiaries to prevent
   further erroneous payments from being issued to these individuals.

AGENCY COMMENTS
SSA generally agreed with our recommendations. The Agency’s comments are
included in Appendix D.




                                                    Patrick P. O’Carroll, Jr.


22
     SSA, OIG, Economic Recovery Payments: Catch-up Payments (A-09-10-11099).
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Sampling Methodology and Results
APPENDIX D – Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                          Appendix A

Acronyms
Act           Social Security Act
ARRA          American Recovery and Reinvestment Act of 2009
EFT           Electronic Fund Transfer
ERP           Economic Recovery Payment
MBR           Master Beneficiary Record
PHUS          Payment History Update System
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
PUPS          Prisoner Update Processing System
RRB           Railroad Retirement Board
SSA           Social Security Administration
SSI           Supplemental Security Income
SSR           Supplemental Security Record
Treasury      Department of the Treasury
U.S.C.        United States Code
VA            Department of Veterans Affairs
                                                                               Appendix B

Scope and Methodology
We obtained data extracts from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR), Supplemental Security Record (SSR), and Payment History
Update System (PHUS) of beneficiaries who received an economic recovery payment
(ERP) in May 2009. From 1 segment of the MBR and SSR, 1 we identified a population
of 2.6 million beneficiaries who received an ERP. In addition, we obtained data extracts
of 3 populations consisting of (1) 63,481 beneficiaries who were deceased before the
payment certification date, (2) 17,348 incarcerated beneficiaries, and (3) 8,207 Prouty
beneficiaries. For each population, we selected a random sample of 50 beneficiaries for
review.

To accomplish our objective, we reviewed

•   the American Recovery and Reinvestment Act of 2009;

•   applicable Federal laws and regulations, SSA’s Program Operations Manual
    System, and other policy memorandums; and

•   queries from SSA’s MBR, SSR, PHUS, Numident, Prisoner Update Processing
    System, and Economic Recovery List Query.

We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data,
which allowed us to assess the reliability of the data and achieve our audit objective.

We performed audit work in Richmond, California, between August 2009 and
February 2010. The entity reviewed was the Office of the Deputy Commissioner
for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




1
  The MBR and SSR are divided into 20 segments, with each segment representing 5 percent of all
records.
                                                                                  Appendix C

Sampling Methodology and Results
Based on a data extract from 1 segment of the Social Security Administration’s (SSA)
Master Beneficiary (MBR) and Supplemental Security Records (SSR), we identified a
population of 2,603,365 beneficiaries who received an economic recovery payment
(ERP) of $250 in May 2009. SSA issued about $650.8 million in ERPs to these
beneficiaries. 1 From this population, we selected a random sample of 50 beneficiaries
to determine whether they were entitled to an ERP. Our review disclosed that SSA
properly issued an ERP to all 50 beneficiaries. In addition, we expanded our work to
perform targeted reviews of deceased, incarcerated, and Prouty beneficiaries.

   Deceased Beneficiaries – We obtained a data extract from all segments of the
MBR, SSR, and Numident to identify beneficiaries who received an ERP in May 2009
but were deceased before SSA’s payment certification date. From this extract, we
identified a population of 63,481 deceased beneficiaries who received $15.9 million in
ERPs. Based on a random sample of 50 beneficiaries, we found all 50 individuals had,
according to SSA’s records, died before SSA certified their eligibility to receive an ERP.

Assuming the population of deceased beneficiaries exhibited similar characteristics as
our sample results, we expect a high percentage, if not all, of these beneficiaries are
deceased. As a result, we estimated about 63,481 beneficiaries were deceased before
the payment certification date and received approximately $15.9 million in ERPs.

   Incarcerated Beneficiaries – We obtained a file of all beneficiaries who received
an ERP in May 2009 while benefits were suspended because they were in prison, in a
mental institution, a predator, or had an “unknown” status. From this file, we identified
a population of 17,348 incarcerated beneficiaries who received $4.3 million in ERPs.
Based on a random sample of 50 beneficiaries, we found all 50 individuals were,
according to SSA’s records, incarcerated when the ERP was issued.

Assuming the population of incarcerated beneficiaries exhibited similar characteristics
as our sample results, we expect a high percentage, if not all, of these beneficiaries
to be incarcerated. As a result, we estimated about 17,348 beneficiaries were
incarcerated at the time of payment and received approximately $4.3 million in
ERPs. Under the American Recovery and Reinvestment Act of 2009, most of these
beneficiaries were eligible for an ERP since they were not incarcerated during the
3-month eligibility period (that is, November 2008, December 2008, and January 2009).



1
  The MBR and SSR are divided into 20 segments, with each segment representing 5 percent of all
records. For the entire MBR and SSR, we estimate about 52 million beneficiaries received $13 billion
in ERPs.


                                                  C-1
   Prouty Beneficiaries – We obtained a data extract from all segments of the MBR to
identify beneficiaries in suspended pay status who received an ERP in May 2009 and
were eligible for “Special Age 72” benefits under the Prouty amendment to the Social
Security Act. From this extract, we identified a population of 8,207 Prouty beneficiaries
who received $2.1 million in ERPs. Based on a random sample of 50 beneficiaries, we
found these individuals were, according to SSA’s records, between the ages of 113 and
132. Therefore, we concluded all 50 beneficiaries were deceased.

Assuming the population of Prouty beneficiaries exhibited similar characteristics as
our sample results, we expect a high percentage, if not all, of these beneficiaries are
deceased. As a result, we estimated about 8,207 Prouty beneficiaries were deceased
and received approximately $2.1 million in ERPs.




                                           C-2
                  Appendix D
Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      September 01, 2010                                                  Refer To:

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn       /s/
           Executive Counselor
           to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Economic Recovery Payments for Social
           Security and Supplemental Security Income Beneficiaries” (A-09-10-11017)--INFORMATION

           Thank you for the opportunity to review the draft report. Attached is our response to the report’s
           findings and recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff at (410) 966-6975.

           Attachment




                                                          D-1
The OIG Draft Report, “Economic Recovery Payments (ERP) for Social Security and
Supplemental Security Income Beneficiaries” (A-09-10-11017)

We offer the following comments and responses to your recommendations.

General Comments

We are pleased with your finding that “The vast majority of ERPs SSA certified in May 2009
were properly issued to eligible beneficiaries under ARRA.” In the short timeframe imposed by
the American Recovery and Reinvestment Act of 2009 (ARRA), we issued economic recovery
payments (ERP) accurately to more than 99.8 percent of approximately 52 million eligible Social
Security and Supplemental Security Income beneficiaries. We worked with Treasury, developed
new processes, and began issuing ERPs about 30 days earlier than the legislatively mandated
deadline. This was a major accomplishment for our agency.

Responses to Recommendations

Recommendation 1:

“Should another ERP be enacted into law, we recommend SSA: Review the Numident and
Prisoner Update Processing System (PUPS) to identify deceased and incarcerated beneficiaries
before certifying their eligibility to receive an ERP.”

Response

We agree that the Numident in conjunction with the Master Beneficiary Record (MBR) and
Supplemental Security Income Record (SSR) would be useful in confirming death information.
We will use the Numident for that purpose if another ERP becomes law.

We disagree with your recommendation that we should use PUPS data to identify incarcerated
beneficiaries. PUPS is updated continually using information provided electronically by Federal,
State, and local correctional and mental health facilities. PUPS is updated, however, only when
beneficiaries are initially incarcerated, not when they are released. The database does not
contain prisoner versus non-prisoner indicators. Considering this, PUPS would be of no use in
identifying beneficiaries who are presently incarcerated, and if we used PUPS, we might
inadvertently withhold payments to eligible beneficiaries. Considering these factors, we will
continue to rely on the MBR and SSR to determine if beneficiaries are incarcerated.

Recommendation 2:

“Should another ERP be enacted into law, we recommend SSA: Work with Treasury to obtain
the authority to reclaim ERPs issued to deceased beneficiaries.”




                                              D-2
Response

We agree. If new legislation is pending, we will work with Treasury, Congress, and the Office
of Management and Budget (OMB), and to the extent possible, suggest and support provisions
giving us reclamation authority for payments made by electronic funds transfer to deceased
beneficiaries.

Recommendation 3:

“Should another ERP be enacted into law, we recommend SSA: Ensure ERPs are not issued to
beneficiaries who are incarcerated at the time of payment.”

Response

We agree, and if another ERP were enacted, we would take the actions described in our response
to recommendation 1. Also, as with our response to recommendation 2, we will work with
Congress and OMB on proposed legislation, and to the extent possible, support provisions
specifically prohibiting payments to incarcerated beneficiaries, both at the time of certification
and payment.

Recommendation 4:

Take appropriate action to terminate the records for Prouty beneficiaries to prevent further
erroneous payments from being issued to these individuals.

Response

We agree. As noted below in “Other Technical Comments,” one person remains eligible for
benefits under Prouty regulations. We will perform research and, where appropriate, take actions
to terminate the remaining cases.




[SSA also provided technical comments that have been addressed, where
appropriate, in the report.]




                                               D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Wilfred Wong, Senior Auditor

   Leticia Lew, Program Analyst

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-10-11017.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
